VISA® RETAIL INSTALLMENT CREDIT AGREEMENT
The Summit Federal Credit Union
In this Agreement the word “card” or “card(s)” refers to all Visa credit
cards issued to you, including any substitute or renewal card(s) (which we
are authorized to reissue at any time). The words “you,” “your,” and
“yours” refer to each Visa applicant and anyone else the applicant permits
to use a card. The words “we,” “us,” and “our” refer to The Summit Federal
Credit Union.
SIGNATURE AND CREDIT LIMIT. Sign your card before you use it. The
first use of your card, check, or the card number means that you accept
and agree to be bound by all the terms of this Agreement. Prior thereto,
you will not be responsible for any purchase or lease of property or
services or cash advances by use of the card after its loss or theft. Your
initial credit limit is stated on the carrier containing the card(s), and your
current credit limit will appear on your billing statement. You may request
an increase in your credit limit by a written application or telephone request
to us. We have the right to increase or reduce your credit limit or to
terminate your borrowing privileges at any time without prior notice to you.
You may not allow the outstanding balance of your account to exceed the
credit limit which we approve. We may, at our discretion, make advances
from your account in excess of your credit limit, but that will not change
the amount of your credit limit. Any such advances are subject to all the
provisions of this Agreement. You agree to repay any outstanding amounts
which exceed your credit limit immediately on our demand.
USE AT AUTOMATED TELLER MACHINES (ATMs). If your card can
be used at ATMs, you have been given a Personal Identification Number
(PIN). You promise that you will not give your card or PIN to anyone
who is not authorized to use your card. You also agree not to write your
PIN on the card itself.
USE OF THE CARD. You may use the card to make purchases or
leases of goods or services in person, by mail, electronically or by
telephone from merchants and others who accept Visa cards. You may
also obtain cash loans (called “cash advances”) from us, from other
financial institutions participating in the Visa program, from automated
teller machines which are part of the PLUS or Visa network, or by using
a convenience check which we send you for that purpose.
(Not all ATMs provide such access and you will need to use your PIN at
those that do.) Cash advances can be used to make balance transfers.
You will owe us the amount charged by use of the card, your card number
or your PIN, plus any other charges provided in this Agreement, all payable
in U.S. dollars.
We will not be responsible for the failure of any third party to honor
your card. Furthermore, utilization of your card in some cases (for
instance, for a transaction in an amount above a certain level) will be
subject to our approval. We will make every effort to approve all your
transactions in accordance with the terms of this Agreement.
However, there are times when our approval system is not working, and
there are other cases (for instance, abnormal frequent use of the card)
where our approval will be withheld. Because of security reasons, we
cannot divulge the details of our approval system. However, you agree
that we will not be responsible for the failure to approve a transaction in
such cases.
NO USE FOR ILLEGAL TRANSACTIONS. You agree not to use the Card,
the Card number or your PIN in connection with any illegal transaction,
such as, but not limited to, illegal gambling. The Credit Union may assume,
without any further inquiry, that all transactions made by you or someone
authorized by you using the Card, the Card number or the PIN are legal,
even if the Credit Union has actual or imputed knowledge of information
which might reasonably lead it to question whether a particular transaction
is legal.
FOREIGN TRANSACTIONS. Purchases and cash advances made in
foreign countries and foreign currencies will be billed to you in U.S.
dollars. The exchange rate to dollars will be determined in accordance
with the operating regulations established by Visa International. As of the
date these disclosures were published, those regulations established the
conversion rate as either the rate selected by Visa from the range of
06.0321

rates available in wholesale currency markets, which may vary from the
rate Visa itself receives, or the government mandated rate in effect for the
applicable central processing date. The currency conversion rate used on the
processing date may differ from the rate that would have been used on the
purchase date or statement posting date. You will be required to pay any
International Service Assessment or other fee that Visa imposes on you or
us in connection with the transaction, which is currently 1% of the
transaction amount. You understand and agree that foreign transactions
include internet transactions (and other transactions) initiated in the United
States with a merchant who processes the transaction in a foreign country,
and you acknowledge an International Service Assessment or other fee
may be charged in such situations. For the avoidance of doubt, you
acknowledge that such transactions are considered made in foreign
countries.
HOW TO STOP PAYMENT OF A CHECK. You may request stop payment
of a convenience check by notifying us by telephone at the following
telephone number: (585) 453-7030 or (800) 836-SFCU, extension 7030. Your
stop payment request will only be effective for fourteen (14) days from your
notice unless the stop payment request is in writing, signed by you,
describes with certainty the item on which the payment is to be stopped, and
is received by us at 100 Marina Drive, Rochester, New York, 14626, in a
timely manner so as to afford us a reasonable opportunity to act upon it.
In any event, we may disregard any stop payment request six (6) months
after we receive it unless you renew the stop payment request by writing to
us within that six month period. If you request a stop payment, a fee of
$29.00 will be charged to your account, even if we are unsuccessful in
stopping the payment. We will use commercially reasonable efforts to stop
payment on your convenience check. However, you agree that we will not be
responsible in any way if a convenience check is cashed or otherwise
presented for payment after you have requested us to stop payment and,
using commercially reasonable efforts, we are unable to stop payment.
MONTHLY STATEMENT. If you have a balance in your account at the
end of your billing period or a transaction occurred during the billing
period, we will send you a statement. It will show separately your
purchase(s), your cash advance(s), the finance charge, the minimum
payment due, and the date the payment is due. The statement will be sent
to you at least 21 days before the date that your payment is due.
PAYMENTS. Payments should be sent to:
VISA
P.O. Box 37603
Philadelphia, PA 19101-0603
There could be a delay of up to five (5) business days in crediting the
payment to your account if you send a payment to us at any other address.
All payments must be made in U.S. Dollars and drawn on a financial
institution located in the United States.
MINIMUM PAYMENT. The minimum payment will be the sum of (a) through
(c) below:
(a) 2.4% of the total New Balance as shown on your monthly
billing statement;
(b) entire portion of the New Balance in excess of your credit
limit;
(c) any amount past due.
NOTE: If the sum of (a) through (c) is less than $25, a minimum payment
of $25 will be due. However, if the New Balance shown on your monthly
statement is less than $25, the entire New Balance will be due. The New
Balance includes outstanding indebtedness for purchases and/or cash
advances, fees, finance charges, and any other obligation(s) under this
Agreement.
If the minimum payment computed as above is not an even dollar amount,
the minimum payment due may be rounded to the next higher dollar.
PAYING MORE THAN THE MINIMUM. You may at any time pay more
than the minimum amount due, or even the total new balance
shown on your monthly statement. The sooner you pay your New
Balance, the less you have to pay in FINANCE CHARGES. Paying more
than the minimum in one month, however, does not relieve you of your
obligation to pay the minimum monthly payment each month.

FINANCE CHARGES. FINANCE CHARGES on your account will be
determined by applying a periodic rate to the “average daily balance” for
your purchases and cash advances. FINANCE CHARGES accrue on both
purchases and cash advances from the date of the transaction or the first
day of the billing cycle in which the transaction is posted to your
account, whichever is later, to the date that payment for the purchase or
cash advance is credited to your account. However, you can avoid
paying a finance charge on current billing cycle purchases (those
itemized on your statement) if: (i) you pay for the new purchases by the
due date appearing on the statement; and (ii) the statement shows no
previous balance for purchases, or you paid the previous balance for
purchases in full by the due date shown on the previous statement. The due
date will be at least twenty-five (25) days from the closing date of the billing
cycle.
We calculate the FINANCE CHARGE on your account by (1) multiplying
the applicable periodic rate described below by (a) the “purchase
average daily balance”, and (b) the “cash advance average daily
balance” and (2) adding together the results of those calculations.

INSUFFICIENT FUNDS FEE. If any check or pre-authorized withdrawal
submitted to us as a payment on the account is returned to us for
insufficient funds, you will be charged a fee of $25.00. We may assess this
charge the first time your payment is not honored, even if it is paid on
resubmission. There is a $25.00 insufficient funds fee for convenience
checks presented against a Visa that is past due or has insufficient funds
available.
CARD/PIN FEE. A fee of $5.00 will be imposed for replacement of
existing credit cards and PINs.
DUPLICATE SALES DRAFT FEE. A fee of $5.00 will be imposed for
copies of sales draft receipts.
STATEMENT/HISTORY COPY FEE. If you request documentary
evidence of a transaction on your account, we may pass along to you the
cost to us of researching this evidence at a rate of $20.00 per hour, with a
minimum charge of $5.00. No such charge will be imposed for billing
statement errors or inquiries.
CONVENIENCE CHECKS. There is a $5.00 charge for each check copy.

To get the “purchase average daily balance” we take the beginning daily
balance of your account attributable to purchases, add new purchases or
debits attributable to purchases, and subtract any payments or credits
attributable to purchases. We do not include unpaid finance charges in
that calculation. This gives us the “purchase daily balance.” Then we add
up all the purchase daily balances for the billing cycle and divide the
total by the number of days in the billing cycle. This gives us the
“purchase average daily balance.” To get the “cash advance average daily
balance” we take the beginning daily balance of your account
attributable to cash advances, add new cash advances or debits
attributable to cash advances and subtract any payments or credits
attributable to cash advances. We do not include unpaid finance charges in
this calculation. This gives us the “cash advance daily balance.” Then
we add up all the cash advance daily balances for the billing cycle and
divide the total by the number of days in the billing cycle. This gives us the
“cash advance average daily balance” of your account.
All Visa credit cards have variable interest rates. The variable rate is
determined at the beginning of each billing cycle by adding the Margin
assigned to your account to the Index. The Margin is determined based on
your creditworthiness and will depend on the product type (Visa Gold:
from 3.25% to 13.00%; Visa Platinum: from 4.75% to 14.50%; and Visa
Signature: from 4.75% to 14.50%). The Index is the highest prime rate
published in the Wall Street Journal in the “Money Rates” section, on the
last Tuesday of the calendar month immediately preceding the beginning
of the billing cycle. The Index rate is the index from which your ANNUAL
PERCENTAGE RATE and corresponding monthly periodic rate will be
determined. If the Index becomes unavailable, another index will be
selected. Your rate may increase or decrease depending upon the
Index as of the next billing cycle. All other things being the same, a rate
increase will increase the amount of FINANCE CHARGE and may increase
the scheduled minimum payment. No matter what the Index is, in no
event shall the ANNUAL PERCENTAGE RATE exceed 18% or a
corresponding monthly periodic rate of 1.5%. Your initial ANNUAL
PERCENTAGE RATE will be specified in a document that is part of this
Agreement and is provided when your account is open. Your ANNUAL
PERCENTAGE RATE may increase after your account is opened.
LATE FEE. If any part of your minimum payment is more than 10 days
late, you will be charged a fee of up to $25.00.
RUSH CREDIT CARD REPLACEMENT FEE. There is a $35.00 fee for
credit card replacement (for 2-3 day delivery) and a $45 fee for expedited
delivery of 1-2 days.
DESIGN YOUR OWN CARD FEE. If you Design Your Own Card a fee
of $9.95 will be charged to create the personalized card. To replace a
Design Your Own Card, a fee of $5.00 will be charged.
ANNUAL FEE. There is a $75 annual fee charged for the Visa Signature
Credit Card.
CASH ADVANCE FEE. A fee of two percent (2%) of the cash advance
amount shall be imposed for any cash advance.
06.0321

LOST OR STOLEN CARDS. If a card is lost or stolen, you must
immediately contact Cardholder Services at 866-820-4085 to inform us of
the time, place, and manner of loss or theft and of your name and Visa
account number.
LIABILITY FOR UNAUTHORIZED USE. Under Visa’s Zero Liability Policy,
you have liability protection for all of your card transactions that take
place on the Visa system unless you are guilty of gross negligence or
fraud. Should someone steal your card or your card number or otherwise
obtain and use your card or your card number without your permission,
you pay nothing for their activity unless you were grossly negligent or
acted fraudulently. If you notice unauthorized activity on your account,
promptly contact us to report it. It is important to continually monitor your
monthly statement to identify any unauthorized transactions. We may
impose greater liability on you if we reasonably determine that the
unauthorized transaction was caused by your gross negligence or
fraudulent action - which may include your delay for an unreasonable time
in reporting unauthorized transactions. In any case, you must immediately
notify the credit union of loss, theft or unauthorized use of your card or your
card number. Notice of unauthorized use may originally be oral, but must be
followed by written notice. Notice must be given to:
1-866-820-4085
PSCU Service Centers, Inc.
Customer Service
P.O. Box 31112
Tampa, Florida 33631-3112
If you tell us within two (2) business days after you learn that your card
or card number has been lost/stolen, you will not be liable for any losses on
your account. If you do not tell us within two (2) business days after you
learn of the loss or theft of your card and there has been unauthorized
use of your card, liability will not exceed $50.
BUSINESS DAYS. Our business days are Monday through Friday. Holidays
are not included.
APPLICATION OF PAYMENTS. We may allocate payments to amounts
due in any manner or order chosen by us, provided we comply with any
applicable laws or regulations.
SECURITY INTEREST. To secure repayment of amounts you owe to
The Summit Federal Credit Union under this Agreement, you grant to us a
security interest in all funds now and hereafter on deposit with us in all deposit
accounts, shares, dividends, sums due and interest (collectively the
“Funds”) and in any new accounts that you may open with us hereafter,
except that the security interest you grant shall not extend to Funds that by
applicable law may not be made subject to a security interest.
DEFAULT AND COLLECTION COSTS. We have the following rights:
(a)Default. You will be in default on this account if: (i) you fail to make a
required payment on time; (ii) you fail to perform any other obligation to
us, or any representation you make proves to be untrue; (iii) you die or
become the subject of a proceeding in bankruptcy; or (iv) any third
party attempts by legal process to take any money or other property of
yours in our possession; (v) if we reasonably believe you will not be

able to repay us for any reason.
(b)Responses to Default. Upon default we may without notice cancel
the account and require immediate payment of all or any part of the
balance due. We may also exercise any of our other legal rights.
(c)Collection Costs. To the extent permitted by law, you agree to pay
our collection expenses, including without limitation court costs and
reasonable attorneys’ fees.
CANCELLATION. We may reduce your credit limit or cancel the
account altogether. Unless you are in default, we will give you notice
of any such reduction or cancellation. We may also cancel your account by
not sending you a renewal card upon expiration of your outstanding card.
You may cancel your account only by notifying us in writing.
The card(s) at all times remain our property, and must be surrendered
immediately upon our request. Upon cancellation you remain obligated
to repay all amounts due under this Agreement.
Regardless of whether your account has been cancelled, no card may be
used after the expiration date indicated on the card.
SHARING INFORMATION AMONG CREDIT UNION AFFILIATES.
Information you provide to us or that we obtain from third parties (for
example, credit bureaus) will not be shared.
AMENDMENT. We may change the terms of this Agreement at any time
in accordance with the requirements of applicable law. To the extent
permitted by law and at the Credit Union’s option, amendments will apply
to amounts outstanding both before and after the amendment takes effect.
SENDING OF NOTICES. Unless otherwise required by the applicable law,
any statement or notice to you under this Agreement will be sufficiently
given if sent to your address on file in connection with this account or to a
new address of which you have notified us in writing at least 20 days
before the sending of the statement or notice.
IRREGULAR PAYMENTS. We may accept late payments, partial
payments, or items marked “payment in full” or the like without losing any
of our rights under this Agreement.
DELAY IN ENFORCEMENT. We may delay enforcing our rights under
this Agreement without losing them.
APPLICABLE LAW. Except to the extent that federal law shall be
controlling, your rights, our rights, and the terms of this Agreement shall
be governed by New York law.
NOTICE TO (YOU) THE BUYER: 1. Do not use the card before you
read this agreement or if it contains any blank space. 2. You are
entitled to a completely filled in copy of this credit agreement.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT. If you
think there is an error on your statement, write to us at:
The Summit Federal Credit Union
Canal Ponds Business Park
100 Marina Drive
Rochester, NY 14626-5104
In your letter, give us the following information: (a) Account
information: Your name and account number; (b) Dollar amount: the dollar
amount of the suspected error; (c) Description of problem: If you think
there is an error on your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us (a) Within 60 days after the error appeared on
your statement, (b) at least 3 business days before an automated
payment is scheduled, if you want to stop payment on the amount you
think is wrong. You must notify us of any potential errors in writing. You may
call us, but if you do we are not required to investigate any potential errors
and you may have to pay the amount in question.
06.0321

WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER. When we
receive your letter, we must do two things: 1) Within 30 days of receiving
your letter, we must tell you that we received your letter. We will also tell
you if we have already corrected the error; 2) Within 90 days of receiving
your letter, we must either correct the error or explain to you why we believe
the bill is correct.
While we investigate whether or not there has been an error: (a) We cannot
try to collect the amount in question, or report you as delinquent on that
amount; (b) The charge in question may remain on your statement, and we
may continue to charge you interest on that amount; (c) While you do not
have to pay the amount in question, you are responsible for the remainder
of your balance; (d) We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will happen: (a) If we
made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount; (b) If we do not believe there
was a mistake: you will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as delinquent if
you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD
PURCHASES. If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay
the remaining amount due on the purchase. To use this right, all of the
following must be true: (a) The purchase must have been made in your
home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to
you, or if we own the company that sold you the goods or services); (b)
You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your credit
card account do not qualify; (c) you must not yet have fully paid for the
purchase. If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
The Summit Federal Credit Union
Canal Ponds Business Park
100 Marina Drive
Rochester, NY 14626-5104
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

